No. 20A21

In the Supreme Court of the United States

BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
PROOF OF SERVICE AND MAILING

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

1389528

I, Jay Rapaport, a member of the Bar of this Court, hereby certify that on
August 10, 2020, in compliance with Rule 29 and this Court’s Order of April 15,
2020 related to COVID-19, I mailed Respondents’ Supplemental Brief to the Court
by directing that the original and two copies thereof be tendered to FedEx, a
commercial carrier, for overnight delivery, addressed to the Office of the Clerk,
Supreme Court of the United States, 1 First Street, N.E., Washington, D.C. 20543.
I further certify that on August 10, 2020, a copy of Respondents’
Supplemental Brief was served upon Benjamin Gutman, counsel for Applicant
Oregon Secretary of State Beverly Clarno, by electronic service in accordance with
an agreement with Mr. Gutman as required by the Court’s Order of April 15, 2020
in regard to COVID-19.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct. Executed on August 10, 2020.

___________________________
JAY RAPAPORT
Counsel for Respondents

1
1389528

